<html>
<title> - ENFORCEMENT IS NOT OPTIONAL: THE GOLDMAN ACT TO RETURN ABDUCTED AMERICAN CHILDREN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    ENFORCEMENT IS NOT OPTIONAL: THE GOLDMAN ACT TO RETURN ABDUCTED 
                           AMERICAN CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2017

                               __________

                           Serial No. 115-17

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE                    
24-918PDF                           WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Noelle Hunter, Ph.D., founder, iStand Parent Network (mother of 
  child returned from Mali)......................................     4
Mr. James Cook (father of children abducted to Japan)............    15
Augusto Frisancho, M.D. (father of children abducted to Slovakia)    26
Mr. Vikram Jagtiani, co-founder, Bring Our Kids Home (father of 
  child abducted to India).......................................    50

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Noelle Hunter, Ph.D.: Prepared statement.........................     9
Mr. James Cook: Prepared statement...............................    21
Augusto Frisancho, M.D.: Prepared statement......................    31
Mr. Vikram Jagtiani: Prepared statement..........................    56

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Mr. Charles Ferrao.................    74

 
                      ENFORCEMENT IS NOT OPTIONAL:
                       THE GOLDMAN ACT TO RETURN
                       ABDUCTED AMERICAN CHILDREN

                              ----------                              


                        THURSDAY, APRIL 6, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone. I want to thank all of you, especially 
all of the left-behind parents I see in the audience, for 
joining us this afternoon to discuss the continuing crisis of 
international parental child abduction.
    Today there is hope that the new administration will change 
the status quo. There is hope that the Sean and David Goldman 
International Child Abduction Prevention and Return Act will 
finally be enforced and there is hope for those of you who seek 
to be reunited with your children that a better day is coming.
    As many of you here today have experienced, international 
parental child abduction rips children from their homes and 
whisks them away to a foreign land, alienating them from the 
love and care of the parent and family that is left behind.
    Child abduction is child abuse and continues to plague 
families across the United States. According to the State 
Department's statistics, approximately 1,000 children are today 
held hostage in a foreign country, separated from their 
American parent. Several hundred additional children join their 
ranks every year.
    Based on historical trends, less than a third of these 
children will ever come home, unless, of course, the Trump 
administration decides to do what the previous administration 
did not do: Change tack and stand up for the American parents 
and children using the full--I repeat full--array of tools 
prescribed by the Goldman Act to help achieve the necessary 
objective.
    I was heartened to hear that many of you visited the White 
House this morning. This is a good sign and gives rise to the 
expectation that your voices will be heard. Indeed, I join you 
in imploring President Donald Trump to act and to act 
decisively.
    For decades and throughout the Obama administration, the 
State Department has used quiet diplomacy to attempt to bring 
these children home. In a hearing that I chaired back in 2009, 
former Assistant Secretary of State Bernie Aronson called quiet 
diplomacy, and I quote him, ``a sophisticated form of 
begging.'' Thousands of American families are still ruptured 
and grieving from years of unresolved abductions, confirming 
that quiet diplomacy alone is gravely inadequate.
    In 2014, after 5 years of persistence, Congress unanimously 
passed the Goldman Act to give teeth to requests for return and 
access. The actions against noncooperating governments required 
by the law escalate in gravity and range from official protests 
through diplomatic channels, to the suspension of development, 
security, or other foreign assistance. Extradition of abducting 
parents also may be called for.
    The Goldman Act is a law designed to get results, as we did 
with the return of Sean Goldman from Brazil in 2009. Brazil's 
participation in the Generalized System of Preferences is up 
again for renewal this year. Why should Brazil get billions of 
dollars in tariff relief when their courts have not returned a 
single child since Sean Goldman? We have 13 long-term cases 
pending there, including the particularly egregious Brann and 
Davenport cases. It is time for action and fully taking 
advantage of our leverage.
    More than 90 American children are separated from their 
American parent in India. The many years required to resolve 
such cases in India make it a magnet for abduction cases and 
crimes. These numbers will continue to climb each year until 
India creates a mechanism for resolution of current cases or 
joins the Hague Convention for future cases, which to date it 
has refused to do.
    Thinking outside the box as to what leverage to apply, 
India's visa allotment could be reduced every year if it is 
noncompliant in the return of abducted American children. But 
there are many, many options on the table and, again, so many 
that were prescribed by the Goldman Act.
    Japan is another country which is a flagrant violator. 
American servicemembers, whose lives are on the line protecting 
Japan, are some of the victims.
    The Obama administration's indefensible refusal to use the 
sanctioning tools embedded in the Goldman Act has been noted by 
other governments and is hurting American children. On February 
14, for example, Valentine's Day, Japan's Minister of Foreign 
Affairs, Fumio Kishida, noted that in their Parliament, the 
Diet, and I quote him, ``Until now, there is not a single 
example in which the U.S. applied Goldman Act sanctions toward 
foreign countries.''
    Let me repeat that. Until now, the Foreign Minister has 
said, there is not a single example in which the United States, 
U.S., applied sanctions, Goldman Act sanctions, toward foreign 
countries. That is outrageous and that has to change.
    Three days later, the Osaka High Court overturned a return 
order for four American children to James Cook, who will 
testify today, in flagrant violation of the Hague Convention, 
Japan's own Hague implementation guide, and United States law. 
Japan fears no consequence--had no fear of consequence under 
the Obama administration--and thus are children are left behind 
and their parents suffer the pain of separation.
    The Elias family is here today. They have been waiting 8 
years to even speak with their children after a flagrant 
abduction in which the Japanese Consulate was an accessory. I 
traveled to Japan with the grandmother, and I can tell you, she 
tried, as has Michael, over and over and over again to even 
have access to his kids. And, again, there has been a closed-
door policy.
    We need to apply the Goldman Act sanctions to Japan. Yes, 
they are a friend and an ally. All the more reason. Friends 
don't let friends commit human rights abuses.
    Dr. Frisancho, who is one of our witnesses today, has been 
waiting 7 years for Slovakia to enforce the return for his 
children. As a matter of fact, he says in his testimony: Is 
enforcement of U.S. law optional? Why is it that we have not 
had the full, all-out enforcement of the United States law 
under the Obama administration? I hope and I pray, and we will 
press, that the new administration will not continue that 
pattern of indifference.
    When is enough enough? What we need is a change in the 
culture of the State Department, which too often rewards 
Foreign Service Officers for appeasing countries in the name of 
maintaining harmonious relations. And, frankly, I have been on 
this committee for 35 years, in Congress now 37, and I can tell 
you, I travel. We have very fine people who serve as Foreign 
Service Officers. But when you rock the boat, when you stand up 
for Americans, that is not a career enhancement process for 
you. That has to change. So the culture of the Department of 
State has to change.
    Implementing the Goldman Act fully and robustly will send a 
message to allies and foes alike that the United States means 
business about ending the suffering of American families and we 
mean business when it comes to these children.
    Dr. Hunter, I saw, and she will lead off our testimony 
today, in her opening paragraphs makes a just very, very 
profound statement, ``This Congress and this administration 
represents our best opportunity ever to put America first for 
America's stolen children, and make the return of American 
children to the United States a priority again.''
    I want to thank her and all of our witnesses for your 
testimonies. Without objection, they all in their fullness and 
any additional information you would like to add will be made a 
part of the record.
    We are joined by my good friend and colleague, Mr. Garrett. 
Would you like to----
    Mr. Garrett. Briefly, Mr. Chairman, I just want to thank 
you and recognize you for your 35-year commitment to causes 
such as this in this body. I tell people oftentimes, Mr. 
Chairman, that sometimes you find your passion and sometimes 
your passion finds you. It has been my great honor for just 
these few months to serve on this subcommittee with you.
    And these are issues that all too often are unheard by the 
American public, and it is something that we sort of, as you 
know, dove headlong into. And it is just an honor to be able to 
work with you for such a great cause and with people such as 
yourselves.
    Please, I welcome anyone in the gallery to contact our 
office as it relates to concerns that you may have so that we 
can leverage whatever little power we have to yield to help to 
have the return of our children to their families in our 
Nation, and thank you.
    And I yield back the remainder of my time.
    Mr. Smith. Mr. Garrett, thank you very much. And thank you 
for your service to our country in the Armed Services, but also 
for stepping up on a variety of human rights issues so early in 
your tenure as a Member of Congress.
    I would like to now introduce our distinguished panel, 
beginning first with Dr. Noelle Hunter, who is the executive 
director of the Kentucky Office of Highway Safety and has been 
in that role since June 2016.
    In 2014, Dr. Hunter testified before the U.S. Senate 
Committee on Foreign Relations on the problem of international 
parental child abduction. She successfully recovered her 
daughter from abduction to Mali that same year with the support 
and resources from her home community of Morehead, her native 
State of Alabama, and from Congress, the U.S. Department of 
State, and the U.S. Department of Justice.
    She co-founded iStand Parent Network to empower parents to 
return their children from abduction and currently serves as 
president of the board of directors.
    Thank you, Doctor, for being here.
    I then will turn to Mr. James Cook, who is the father of 
four children, two sets of twins, who were abducted and are now 
in Japan. In this time he has only been allowed one visit with 
his children and has not been allowed any access to them since 
August 2015.
    Mr. Cook works for Boston Scientific Corporation, a 
manufacturer of medical devices in Minnesota. Mr. Cook 
testified before this subcommittee in July of last year and 
again we welcome him back and look forward to updates and 
insights that he can provide.
    We will then hear from Dr. Augusto Frisancho, father of 
children abducted to Slovakia. He is a physician and received 
his medical degree in general medicine from Charles University 
in Prague in the Czech Republic. He works at Johns Hopkins 
University in Baltimore, in public health medical research. He 
also works for the National Center for Missing and Exploited 
Children as a consultant, providing support to families 
impacted by a missing child. His three children were abducted 
to Slovakia by his wife in 2010.
    Then we will hear from Mr. Vikram Jagtiani, whose daughter 
Nikhita was born in New York, taken by his wife in 2013 when 
she was just 4 years old. Wanting to see his daughter again, he 
co-founded Bring Our Kids Home, along with other left-behind 
parents whose children have been abducted to India from the 
United States. Bring Our Kids Home seeks to raise awareness 
about international parental child abductions community and 
advocates for the prompt return of all American children.
    Dr. Hunter, the floor is yours.

   STATEMENT OF NOELLE HUNTER, PH.D., FOUNDER, ISTAND PARENT 
          NETWORK (MOTHER OF CHILD RETURNED FROM MALI)

    Ms. Hunter. Good morning. Thank you, Mr. Chairman, thank 
you, Mr. Garrett, for taking the opportunity to attend today.
    We have just recently come from the White House, myself and 
my fellow parents. It was a very productive meeting. We were 
very candid about the concerns that we have about current 
enforcement of the Goldman Act. But more importantly, there is 
an opportunity here to put America first for America's stolen 
children.
    I am honored to share my story and speak for fellow parents 
of internationally abducted children. As you said, sir, this 
Congress and this administration represent our best opportunity 
ever to put America first for America's stolen children and 
make the return of America's kidnapped children a priority to 
the United States.
    I am president and co-founder of iStand Parent Network. My 
daughter, Muna, was a victim of international parental child 
abduction. She was abducted from our home in Morehead, 
Kentucky, on December 27, 2011--she was only 4 years old at the 
time--and taken to Mali, west Africa, by her father.
    Despite some initial delays, I soon had court orders for 
her return and cases with the FBI, the Department of State's 
Office of Children's Issues, and the National Center for 
Missing and Exploited Children. My experience with all of these 
agencies was exceptional, responsive, and accomplished the 
goal.
    Sadly, this is not most parents' experience. Most parents 
find the return of their children is subordinated to not making 
nations feel uncomfortable.
    Mali initially showed no interest in working with me or our 
Government to return Muna. That all changed in November 2012, 
the day I staged a protest in front of the Mali Embassy here in 
Washington and subsequently engaged my congressional 
delegation, including Senate Majority Leader Mitch McConnell, 
Senator Rand Paul, and Chairman Hal Rogers.
    I am grateful that Muna's case became very personal for 
Senator McConnell and Chairman Rogers in particular. They 
constantly engaged with the Department of State, Department of 
Justice, and Malian officials in Washington and Bamako. 
Chairman Rogers raised our case directly with former Secretary 
of State John Kerry during an Appropriations hearing. Senator 
McConnell progressively escalated his interactions with the 
nation of Mali while receiving regular updates from the State 
Department.
    I was blessed to have benefited from a whole-of-government 
response, and that is the reason that Muna is home today.
    Just before she came home, as you said, sir, Senator Corker 
invited me to testify on the Goldman Act, legislation that was 
supposed to make life easier for parents who are trying to 
return their children, before the Senate Committee on Foreign 
Relations. And, of course, Mr. Chairman, you have been our 
champion all along, drafting and shepherding the Goldman Act 
until its eventual enactment. And I believe I speak for all of 
the parents when I say that we thank you. You give us hope that 
our children can come home.
    This is all the momentum that I took with me to Mali in the 
summer of 2014. U.S. Ambassador Mary Beth Leonard and consular 
officers facilitated a meeting with Mali's Minister of Justice, 
and that day I knew that I was coming home with my daughter. We 
were escorted out of the country by United States Marines, and 
Ambassador Leonard herself put us on the airplane. When we 
arrived at Cincinnati/Northern Kentucky International Airport, 
my beloved Senator McConnell was there to welcome us home.
    I am told that my story is unique, and, sir, this is 
tragic. It should not be this way. If every Member of Congress 
with kidnapped constituents would begin to regularly inquire of 
Federal agencies and the nations in which they are held and 
also require enforcement of the Goldman Act and other laws that 
are designed to make it easier to bring our children home, we 
would see an immediate surge in returns and reunifications of 
children with their parents.
    A whole-of-government support of parents who have had their 
children stolen from them would also create a very strong 
deterrent for would-be abductors and put nations on notice that 
America will not tolerate the theft of its children.
    There are a few things, sir, that need to happen to hasten 
those outcomes and make my story less unique. The Trump 
administration has a golden opportunity to show parents across 
these United States whose children have been kidnapped to 
countries that actively work against their return that it 
supports these parents and will do all it can to bring our 
children home.
    As I said, I was blessed to have the active involvement of 
the Kentucky congressional delegation, the Department of State, 
and the Department of Justice, including in the Department of 
State Ambassador Leonard and Embassy staff in Bamako. But every 
taxpaying parent, every single one in the United States, 
deserves the full-throated, aggressive support of our 
Government.
    The Trump administration has a chance to signal its intent 
to support American parents where prior administrations have 
failed to do so. ``America First'' must mean putting America's 
stolen children first.
    Countries around the world that are harboring American 
children and ignoring their legal obligations need to be put on 
notice that it is time to comply. The worst offenders in the 
international community, countries like Brazil, India, and 
Japan, need to be more forcefully addressed and not given a 
pass by diplomats. Laws need to be taken seriously and 
enforced, and there need to be consequences for failing to 
adhere to international obligations and other commitments. And 
in circumstances where countries still refuse to return our 
children, they should no longer receive the benefits from the 
United States, such as favorable trade agreements, visas, and 
foreign aid, until they do comply.
    Case in point, Brazil, as you mentioned earlier, has aided 
and abetted the kidnapping of many American citizen children, 
but the United States Government has to date failed to take 
this issue seriously, and Brazil has responded accordingly. If 
Brazil does not start returning children to the United States 
quickly and make other good faith efforts to show that it 
intends to return all American children, the United States has 
an opportunity later this year, in 2017, to deny Brazil the 
over $2 billion benefit it receives by taking part in the 
United States Generalized System of Preferences, or GSP. Brazil 
must literally pay a price for noncompliance here, and the GSP 
represents a perfect opportunity to demonstrate seriousness.
    Similarly, India has aggressively refused to return 
American children, but the President has the authority to 
prevent H-1B visas and other lucrative work visas from being 
issued to an India national if it does not start returning 
American children. India, too, can be forced to pay a price.
    The Department of State must prioritize the return of 
American children over diplomatic niceties. It is 
understandable that diplomats believe in success through 
dialogue, but when it comes to international parental child 
abduction, let's be clear: The goal is not dialogue, but the 
return of abducted children, period. The Department of State 
needs to be refocused on what is most important: Putting 
America's children first. Dialogue is a means to an end and not 
an end itself.
    Transparency with the Congress and the American people is 
essential. The Department of State definitively has the 
capability to report specific data to Congress to inform your 
casework, legislation, and oversight. It has the data 
collection and analytical tools necessary to report abductions 
by state and plot abductor destination countries on a world 
map.
    Despite this capacity, the Department of State has, 
respectfully, made a concerted effort to keep the scope of this 
problem hidden, particularly during the previous 
administration, and it did so for one very important reason: It 
was terrified that Congress might not only have a fuller 
understanding of the scope of this problem, but that it, 
Congress, might also have more tools to bring many of these 
children home. The State Department can improve its forthcoming 
report by drilling down on this data and making it publicly 
available.
    Federal laws, both civil and criminal, must be enforced. 
Enforcement of the Goldman Act and other Federal laws that are 
supposed to help parents is the way forward. It directs 
progressive sanctions against worst offender nations who 
benefit from economic, cultural, and diplomatic relationships 
with the United States and yet refuse to return our children, 
hold them captive.
    The Department of State need to stop issuing demarches, 
diplomatic wrist slaps behind closed doors, and start using the 
full array of tools outlined in the Goldman Act, including 
sanctions against noncompliant countries, in order to be most 
effective.
    The Department of Justice has options that can and should 
be considered as well. While many abducting parents do not 
generally leave the country where they have taken their 
abducted children, some do. In fact, some own property and 
assets internationally, including in the United States, and 
even travel for business, sometimes frequently. Each of these 
international assets and points of travel is a point of 
leverage for abducting parents and should be actively explored.
    International agreements governing international child 
abductions must also be enforced. The Hague Convention on the 
Civil Aspects of International Child Abduction, which is the 
governing treaty for international parental child abductions, 
does work for some, and we are aware of a handful of cases, 
comparatively speaking, of children who have come home by this 
process. In fact, I just learned of a parent whose son was 
abducted to Italy who recently came through a Hague return 
order.
    We are very happy any time a parent and child are reunited 
for whom this process is working. But they are, I am, in a 
minority of successful cases. The aforementioned nations and 
other state parties which acceded to the Hague Convention and 
yet decline to enforce access or return of children to their 
habitual residence in the United States under that convention 
must be held accountable.
    Finally, there must be a persistent whole-of-government 
approach to bring children home. For nations like Mali, which 
is not a signatory to the Hague Abduction Convention, there 
must be pressure and insistence on returns. Though it was never 
said to me, sir, I am quite certain that Mali was becoming 
distinctively uncomfortable with the level of attention by me, 
Muna's supporters, and my Government, the United States 
Government, which would not let my daughter be lost.
    I am confident that other nations would follow suit as Mali 
to let these children go should they come under greater 
scrutiny. We can see the result in every country that is 
harboring abducted children if every Presidential trip, every 
diplomatic delegation, every congressional delegation raises 
the crisis of our children when visiting these countries. More 
children will come home once these countries understand that we 
are not going away and we will not forget our children.
    What matters most is that we stand united for their return, 
for Hannah and Ryan, Eslam and Zander, Mochi and Keisuke, 
Reyansh, Roshni and Rachel, Eliav and Abdallah, Gabriel and 
Anastasia, Henry and Helena, and all of America's stolen 
children.
    May we not rest, may this country not rest, until the 
banner of liberty and freedom that we enshrine and believe in 
is extended over them to usher them home.
    Thank you, sir.
    [The prepared statement of Ms. Hunter follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Hunter, thank you so very much for your 
testimony and for laying out a number of very, very important 
ways forward. Thank you.
    Ms. Hunter. Thank you.
    Mr. Smith. Mr. Cook.

  STATEMENT OF MR. JAMES COOK (FATHER OF CHILDREN ABDUCTED TO 
                             JAPAN)

    Mr. Cook. Thank you, Chairman Smith, members of the 
subcommittee, and members of the audience watching these 
proceedings all over the world. I really appreciate this 
opportunity to speak to you a second time about my Hague 
Convention case in Japan and the problems encountered following 
the previous testimony given last July.
    First, I want to say hello to my children, because I have 
not been allowed any access to them since August 2015. This is 
in direct violation of Hague and evidence of Japan's continuing 
noncompliance.
    Hello, children. I have not and will not give up having us 
together again in the USA. I am sorry this situation has not 
been resolved by now. I am closer than ever before to having us 
together again. Please hold on. Love, Dad.
    There were two failed Hague return enforcement attempts in 
Nara, Japan, in September 2016. Direct enforcement was done 
exactly as Japan requires, an almost SWAT-like ambush where 
they were living. During the direct enforcement, I was only 
able to hear the voices of my two older sons, and I did not 
recognize those voices. It was a sobering reminder of how much 
has been missed. As a parent, to be unable to recognize your 
own child's voice brings a type of pain that cannot be 
described but certainly can be felt as a visceral shudder by 
all parents.
    At the direct enforcement attempts, there were court 
officers, police, psychologists, and officials from the 
Japanese Central Authority and U.S. Consulate. With the 
exception of U.S. officials, it was obvious that everyone else 
was there to protect the children from me trying to see them 
and to thoroughly document an anticipated, calculated failure. 
I foolishly thought these officials I had paid to execute 
direct enforcement were there for my success. In reality, they 
were just playing their roles of predetermined outcome, 
failure.
    Furthermore, and worst of all, it severely traumatized our 
children in a way that did not need to happen.
    With the unsuccessful enforcement attempts, Japan has once 
again failed to enforce a Hague return order. This time it was 
the one issued by the Osaka High Court on January 28, 2016. 
This indicates a systemic problem that was also reported in the 
annual Hague Compliance report issued just a few days prior to 
my last testimony in July 2016.
    This is 2 years in a row that Japan has been unable to 
enforce its Hague return orders. This is a systemic problem and 
should be concerning for any foreign entity planning to enter 
into contracts or binding agreements with parties in Japan. It 
certainly should concern foreign governments regarding allowing 
any of their children to visit Japan.
    Assumption of subject matter jurisdiction, in accordance 
with the Osaka High Court return order dated January 28, 2016, 
and a mirror return order were issued from Hennepin County 
Family Court in Minnesota on December 2, 2016; then again on 
December 13, 2016; and then again on January 24, 2017; and then 
again on March 24, 2017; and then a very thorough analysis of 
continued subject matter jurisdiction and return order on April 
4, 2017.
    Will Japan even respect our court's rulings as we are 
expected to respect theirs?
    I was granted temporary sole custody and our children, and 
they were ordered released to me on December 17, 2016, at the 
U.S. Consulate in Osaka for their return to the United States. 
Our children were never brought to the Consulate on that day, 
in violation of two Minnesota court orders. Hitomi Arimitsu was 
in contempt of the Minnesota court orders that mirrored the 
Hague return order of Japan.
    I take a moment here. I must acknowledge the significant 
efforts and resources that were put forth and put in place for 
that day by the Department of State. Unfortunately, it did not 
turn out as we wanted it to, but I thank everyone because a 
great amount of effort was put forth, and I appreciate that.
    After a year of unsuccessful enforcement, on January 5, 
2017, Hitomi Arimitsu filed for a modification of the Osaka 
High Court return order citing ``grave risk'' standard under 
Hague. The evidence of grave risk cited was of relative 
lifestyle change if returned. On February 17, 2017, the Osaka 
High Court Hague return order of January 28, 2016, was revoked, 
and at this time our children are not being ordered returned by 
the Osaka High Court.
    The revocation of previous return order indicates invalid 
interpretation of the Hague Convention and provides further 
evidence of Japan's failure to comply with its international 
obligation. Article 28 of the Japanese Hague implementing 
legislation enables an expanded interpretation of grave risk 
that gives judges broad leeway, way beyond international 
precedent and language of the Hague, to deny returns. In this 
instance, it overturned their own previous ruling and in effect 
made use of the taking parent's ongoing noncompliance with the 
Hague return order in Japan and from the habitual residence of 
the children in Minnesota.
    Article 28 is not compliant with the Hague, and it must be 
ordered changed by fellow Hague signatories.
    The February 17, 2017, order was signed by Presiding Judge 
Toru Matsuda, Judge Yoshinori Tanaka, and Judge Takahiro 
Hiwada. We have appealed this ruling to the Japan Supreme Court 
and we received permission on March 29 to have our case heard. 
According to my attorney, it will likely take up to 1 month for 
the Supreme Court to receive the file from Osaka High Court. If 
the February 17 decision is overturned, as we fully expect, it 
will take an additional 6 to 12 months for a Supreme Court 
hearing.
    The projected timeline far exceeds the expeditious 
processing of Hague cases as outlined in the convention. My 
case began in August 2015, and it is still unresolved. Japan in 
yet another way is not compliant with Hague.
    On March 24, Hennepin County Family Court found Hitomi 
Arimitsu in constructive contempt of all previous orders. As 
part of her purge conditions, Hitomi Arimitsu must return to 
U.S. or release our children to me on April 23 at the U.S. 
Consulate in Osaka. Tomorrow, April 7, Hitomi Arimitsu must 
surrender all passports of our children to the U.S. Consulate 
in Osaka, Japan, or communicate to the Minnesota court her 
intention to comply with the April 23 order.
    On Monday and Tuesday, April 10th and 11th, the G7 
Ministerial Foreign Affairs meeting will take place in Lucca, 
Italy. I hereby respectfully request that our Secretary of 
State, Rex Tillerson, brings the topic up during this important 
G7 meeting in order to have it subsequently discussed in the 
upcoming G7 summit that will be held in Italy on May 26th to 
the 27th.
    Considering the two Italian children abducted and abused in 
Nagasaki shortly after moving to Japan in order to avoid Hague 
Convention proceedings, it is also in Italy's best interest to 
have this issue resolved before it is too late. The same goes 
for the other cases that each one of the G7 countries has 
pending with Japan. Yes, every G7 country has abduction cases 
that are going unresolved, and Japan stands in the way of these 
children being reunified with their parents. Kidnapping should 
not be a protected societal value.
    Five days prior to the April 23 ordered return date, Vice 
President Pence will visit Japan on April 18th and 19th. He 
will meet his counterpart, Japanese Deputy Prime Minister Taro 
Aso. Vice President Pence will surely meet Prime Minister 
Shinzo Abe and Minister of Foreign Affairs Fumio Kishida as 
well.
    I hereby respectfully request that Vice President Mike 
Pence speak with these Japanese officials and ask them to have 
Japan meet their international obligation to comply with the 
Hague Convention and return our children to their habitual 
residence in Minnesota. Excuses may be offered why they cannot, 
but I know from 30 years of involvement with Japan, Japan will 
force the return if required or given no other choice.
    The following day, April 20, Italian Prime Minister Paolo 
Gentiloni will meet with President Donald Trump right here in 
Washington, DC. The significance of this is also related to the 
upcoming G7 summit. The host country has determining influence 
in setting the agenda of the G7 summit, and considering that 
citizen safety is the number one topic among the official 
priorities set by Italy for the G7 summit with a target area of 
managing human mobility, we would like to officially request to 
have child abductions in Japan, a form of human trafficking, 
discussed and included in the agenda.
    I hereby respectfully request that President Donald Trump 
and Prime Minister Paolo Gentiloni talk about Japan's 
noncompliance with Hague Convention and resolve to put the 
issue on the G7 agenda. Japan's continuing failure to comply 
with international standards puts children in all G7 member 
states at risk of being abducted with no feasible means of 
recovery.
    Japan remains an ongoing international threat to our 
children and our human rights. They are by all means victims of 
an outdated legal system. It is an opportunity for President 
Trump to demonstrate ``America First'' by demanding Japan 
respects a properly rendered decision and several return orders 
from a U.S. court.
    There is no viable legal means at present to recover 
children through the Hague Convention if the taking parent in 
Japan refuses to cooperate with court orders, as I know well, 
and there are no consequences in Japan for contempt.
    Our children remain with Hitomi Arimitsu in contempt of 
court with courts in both countries, aided and abetted by Mr. 
Yukinori Arimitsu of Arimitsu Industry Co., Ltd., of Osaka, 
Japan. I wonder if anyone in Japan has influence over Mr. 
Arimitsu to persuade him to end this conflict between Japan and 
the USA. Why would he want to put the country of Japan in 
jeopardy any longer?
    Hitomi Arimitsu owes me approximately $95,000 in unpaid 
legal expenses and fines that have accrued since the time they 
were imposed by the Japanese legal system. The money remains 
uncollected owing to Japan's dysfunctional legal system. I 
wonder how any foreign party or government can feel their legal 
rights will be protected in Japan. There exists ample evidence 
of a dysfunctional judiciary, generating capricious rulings 
based upon pragmatism of situations, not principles of existing 
law.
    There are good people and groups in Japan pushing for 
children's rights and Hague compliance. For example, Japanese 
Diet Representative Kenta Matsunami on March 8 of this year 
repeatedly asked the Japanese Minister of Justice, Katsutoshi 
Kaneda, whether he agreed with the interpretation of the 
revised Japanese Civil Code, Article 766, given by his 
predecessor, Satsuki Eda. At the time of those deliberations in 
the Judicial Affairs Committee, Mr. Eda stated that Article 
766's meaning was to disqualify an abducting parent from 
custody preference. After a longwinded evasion of the question 
and repeated questioning by Mr. Matsunami, Mr. Kaneda was 
finally brought to respond in the affirmative, in English, 
``yes.''
    Likewise, Director General of the Japan Supreme Court 
Family Division, the Honorable Hitoshi Murata, acknowledged the 
statement of his predecessor at the time in 2011 when the 
revision of the Article 766 was being deliberated that the best 
interests of the child should be considered, and this has not 
changed since.
    The revised Article 766 was designed to prevent abducting 
parents from retaining custody of their abducted children or 
gaining an advantage in court. Article 766 took effect 5 years 
ago and has been ignored by an unaccountable, rogue judiciary 
mired in tradition ever since.
    On the same day the Hague Convention went into effect in 
Japan, April 1, 2014, the current Chief Justice of the Japanese 
Supreme Court, Itsuro Terada, assumed office as well. He issued 
a statement, and the translation reads, I quote:

        It becomes common for the courts to deal with cases 
        which have to be considered domestic matters and 
        international matters as the Hague Convention having 
        come into effect today. So, I believe that we judges 
        are asked to make sustained effort to meet the 
        expectation and trust of the people in us and to tackle 
        these matters by studying the real state of affairs 
        happening in Japan and the international trend in order 
        to strengthen the function of the judicial branch.

    Shouldn't Japanese courts be following both the principle 
of the revised code Article 766, their domestic law, and the 
principle of the Hague Convention, their international 
obligation? In actuality, both legal standards are in abeyance 
in Japan. Japan's courts are not even functional for Japanese.
    A case in point involves Mr. Yasuyuki Watanabe. Mr. 
Watanabe has battled in court many years to see his child. In 
an unprecedented decision, Matsudo, Chiba Family Court awarded 
Mr. Watanabe, a father, custody of their child, taking it away 
from the mother. This decision was appealed to the High Court 
on January 26 of this year, and the High Court overturned the 
previous decision in Matsudo.
    The High Court ruling explicitly cited the old discarded 
legal standard, the continuity principle, a principle that 
rewarded the abducting parent with custody in order to not 
upset the child. The court ignored the 5-year-old Article 766, 
the current law. Mr. Watanabe is appealing this errant ruling 
to the Supreme Court in Japan.
    Please note, joint custody is not a legal option in Japan, 
only sole custody. It is a zero-sum game in which the child is 
guaranteed to lose every time.
    This abduction appears to have been well organized and well 
planned. We can see there is such activity by groups in Japan 
as described in a Liberal Time article about Shelter Net. There 
is also organized activity by radical left activists and 
communists in Japan. I believe these groups and their followers 
in Japan's judiciary were responsible for the noncompliant 
ruling of February 17. With more international pressure on 
Japan, groups such as these will be exposed and brought out of 
the shadows.
    Now, I am required to go to the U.S. Consulate in Osaka for 
a second time to wait for our children to be released to me on 
April 23. Will the request by Vice President Mike Pence make a 
difference? Will Prime Minister Shinzo Abe, Foreign Minister 
Fumio Kishida, and Minister of Justice Katsutoshi Kaneda 
respond in kind and facilitate the return of our children?
    I urge the Bureau of Consular Affairs in its annual Hague 
Compliance report, due by law on April 30, to reflect the 
failure to enforce Hague return orders once again in the Japan 
Country report. Moreover, I urge the report to finally 
categorize Japan as a noncompliant country.
    Then, as indicated in the Goldman Act, Secretary of State 
Rex Tillerson ought to use his discretion to implement the most 
pernicious executive actions available to him by law, and 
specifically, extradition of our children and Hitomi Arimitsu 
to USA to appear in Minnesota court as repeatedly ordered. 
Secretary Tillerson possesses the character and stature to 
resolve this issue.
    At a forum of the international community in which Japan 
takes part, this issue must be addressed at the G7 summit in 
Italy. Other G7 members must demand immediate changes to 
Japan's dysfunctional legal system and laws in order for Japan 
to be considered worthy of continued membership. It used to be 
G8, and it may be time for it to become G6.
    In closing, I am here alone, but my voice represents not 
only my children and I, but hundreds of thousands of children, 
Japanese and foreign, that every year lose access to one parent 
in Japan. Japan has been complicit in ongoing retention of our 
children and failure to enforce several court orders.
    Parental abduction is a penal crime in most advanced 
countries, but in Japan it is not. Japan cannot be trusted 
moving forward to voluntarily take steps necessary to effect 
functional enforcement of court orders of any kind, 
specifically Hague.
    The tools exist in the U.S. Code to motivate Japan to 
comply. It is not a matter of ambiguity. The bright line has 
been blurred to suit others' interests, not the U.S., in the 
past. The Goldman Act provides a process and consequences in 
these situations. Within the Goldman Act there are a myriad of 
consequences to choose. The power to choose and impose these 
sanctions resides in one office, one official, one individual, 
Secretary of State Rex Tillerson.
    Thank you again for this opportunity to speak before this 
committee. And I have tried to keep my testimony brief because 
I understand subcommittee members have family and perhaps even 
children they expect will be there when they return home.
    [The prepared statement of Mr. Cook follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Cook, thank you so very much for again 
laying out your own case, but also with some very, very doable 
recommendations. And with the G7 meeting coming up, I think 
that is a tremendous opportunity for us to really rally with 
letters to Vice President Pence, the President, and to Rex 
Tillerson. And so I think your points were extremely well 
taken.
    Dr. Frisancho.

   STATEMENT OF AUGUSTO FRISANCHO, M.D. (FATHER OF CHILDREN 
                     ABDUCTED TO SLOVAKIA)

    Dr. Frisancho. I would like to thank you, Chairman Smith 
and Ranking Member Bass and all the members of the 
subcommittee.
    I would like to say how this nightmare started. In 2008 my 
wife asked me for a divorce. I totally refused, and I told her 
we couldn't do this to the children. She told me, ``You would 
give your life for your children but not for me. This is how 
you men think. When there is no longer love in the marriage, 
all you men want is to stay together only because of the 
children.''
    I asked her to try to work things out, seek professional 
help, get counseling, but nothing worked. After a year I 
accepted it. I did apologize to her for trying to keep our 
marriage alive. We agreed on joint custody, and I accepted her 
petition to go and together tell our children that we both have 
decided to divorce. However, we are still married.
    Slovakia. In 2010, my wife abducted our children to 
Slovakia. I filed an application for the return of the children 
under the Hague Convention on the Civil Aspects of 
International Child Abduction. My wife was called upon by the 
Central Authority for the Hague Convention in Slovakia to 
discuss the peaceful return of our children home. When no 
agreement could be reached, the case was sent to the Slovak 
court for Hague legal proceedings that continue to this day.
    My wife acknowledged in court that the children love their 
father, and at the end the Slovak courts ruled the return of 
the children to the United States, but they never enforced it. 
A court order that was once final and binding was reopened 
later, and the case continues to this day.
    Travel ban. The Slovak courts also prohibited the removal 
of our children outside of Slovakia until the Hague proceedings 
were finished, but my wife, in violation of that travel ban, 
removed our children to Hungary.
    European Court of Human Rights. Later on, I filed a 
complaint against Slovakia under the European Court of Human 
Rights in Strasbourg where a chamber of seven judges 
unanimously ruled that Slovakia had violated my human rights as 
a father with respect for my family life, and it ordered 
Slovakia to pay me damages. This court concluded that there was 
no dispute that the relationship between the father and his 
children was one of family life. The Slovak ruling can by no 
means be said to have been in the children's best interest.
    So where are we now? Three judges in the United States, 
four in Slovakia, and seven judges in Strasbourg, a total of 14 
judges, men and women from different backgrounds and countries, 
all have acknowledged that the abduction of our children is 
wrong. However, the Slovak courts have stayed the Hague 
proceedings on the mistaken presumption that Slovakia no longer 
has jurisdiction, and currently the Slovak Constitutional Court 
is reviewing my appeal.
    Slovakia needs to comply not only with the Hague 
Convention, but also with the European treaty called Brussels 
II that gave Slovakia the tools to order again the return of 
the children to the U.S. and enforce that order in Slovakia in 
the event that the children are found in Slovakia or to 
cooperate with any other country member of Brussels II, such as 
Hungary, to have the Slovak court order enforced in that third 
country. How can we start a new litigation in Hungary when 
Slovakia has already accumulated evidence during 6 years?
    Criminal charges. To top all that injustice, my wife is 
trying to file in Slovakia criminal charges against me for 
unpaid child support for children who, according to the Slovak 
courts, say no longer reside in Slovakia. I have said in the 
past that by doing that I would be supporting this emotional 
abuse of the children, and, moreover, it is the U.S. court that 
has jurisdiction over the children. This court has given full 
custody, legal and physical, to me, and it says that child 
support will be decided by the Baltimore court, not by 
Slovakia.
    Access to my children. I have repeatedly obtained court 
rulings ordering the mother to allow the children to meet with 
me. I traveled multiple times to Europe. In 1 year alone, I 
took 14 weeks off from my work trying to stay in touch with my 
children. With the court orders in my hands, I went to my 
wife's parents' house, and my children's grandmother, Mrs. 
Piroska Kiss, told me, ``Don't you know, Augusto, that you will 
never see the children again? Go away. Stop bothering us.''
    On another occasion, I filed a missing persons report in 
Slovakia, but not even the law enforcement will help me see the 
children. I went to their schools repeatedly in both Slovakia 
and Hungary, met with the teachers and principals, who 
introduced me to my children's classmates in their classrooms, 
but I couldn't see the children. I never saw my children 
because my wife had taken them away for days and weeks until 
she learned that I had returned to the United States.
    The courts also ordered my wife to let me Skype, email, and 
talk over the phone with our children, but she declared openly 
in the court that she didn't have a computer, she didn't have 
Internet, and she will never let me see ``her'' children 
anyway.
    My boys need me. Every boy needs his father. They are 
teenagers. Their bodies and minds are changing from boys to 
men.
    Besides being father and sons, we were friends. We had a 
very strong, respectful, and very much a loving relationship. 
When my wife had stayed at work from early morning to late 
evenings, our children stayed with me all day long.
    I did everything with them. Woke them up. Got them ready 
for school. Gave them breakfast. Made lunch boxes. Drove them 
to school. Then I ran to work and left my job early in order to 
pick the boys up from school. Then we had lunch and rested, 
played, did the sports. Then we went home back, and while the 
older boys were doing homework, I did art, drawing with Raymi, 
my little son. Then we had dinner together, showered before 
going to bed, prayed, and got ready for sleeping. And when the 
lights went off, I would tell them stories until they fell 
asleep.
    Once it happened that while I was talking to them about 
life and that one day we would go to heaven, one of my boys 
asked me, ``But, Daddy, why do we have to go if this life is so 
beautiful?''
    I am sorry. I am just sharing with you this because I would 
like you to know that my children had a good life in the United 
States. They attended one of the top schools in the Nation.
    And before all this idea of divorcing came up and the 
kidnapping, I had concerns about my wife's mental health. She 
collapsed in the parking lot of our children's schools and was 
taken to a psychiatric hospital where she was retained against 
her will and put on strong antipsychotics.
    After she was released, she described to me that she said 
there that she was sick because of her boss, so that all the 
guilt will go on her boss' shoulders, because she fought with 
her boss and she resigned her job. A mother of three children 
one day came to my house saying, ``I resigned.'' I said, ``What 
happened?'' ``Well, I had a fight with my boss, and I told her 
I don't need the job.''
    We were actually in that time making the same amount of 
money. We had to pay credit cards, a mortgage, two cars, 
private schools, and my salary would not suffice for all that, 
and she knew that. But she just resigned from her job. That is 
indicating how she was mentally.
    She raised accusations against some of our children's 
teachers, neighbors, pediatricians, dentists, and other people. 
One year prior to the abduction, she went to Slovakia 
supposedly to rest, but later on she emailed me saying if I 
could come quickly to Slovakia to pick her up because she could 
no longer live under the same roof with her parents. According 
to her, everybody in the village where they lived looked at her 
as she was a criminal because of the complaints her father, Mr. 
Alexander Kiss, had made against her.
    Department of State, Office of Children's Issues. I would 
like to express my gratitude to the Department of State for 
having assisted me from day one. U.S. Embassy officials 
attended each and every hearing in Slovakia. They sent 
diplomatic notes and demarches to the Slovak Government and had 
personal meetings with government officials.
    However, as we all can see, although this tremendous work 
done by the Department of State is very much appreciated, after 
almost 7 years my sons have still not returned home. This is 
showing us that much more needs to be done.
    The Department of State could use the additional tools 
provided by the Goldman Act in order not to let Slovakia find 
excuses to release its responsibility by saying that it no 
longer has jurisdiction over my children's Hague return case, 
forgiving my wife for removing our children to Hungary in 
violation of a travel ban, and staying the proceedings in 
Slovakia.
    We are not telling Slovakia how to rule their judicial 
system, but we are demanding Slovakia to follow the rules of 
treaties for which Slovakia had signed a membership, with all 
due respect to Slovakia.
    Specifically, the Department of State could take the 
following actions, as we all know. Delay or cancel bilateral 
working, official, or state visits and student exchanges with 
Slovakia. Withdraw, limit, or suspend United States 
development, economic, or security assistance.
    In summary, the Goldman Act not only empowers the 
Department of State, but it even requires punitive actions 
against countries that do not respect international agreements 
like Slovakia.
    Acknowledgements. I would like to express my gratitude to 
the Department of Justice, FBI, and INTERPOL, especially to 
Senator Cardin and Congressman Elijah Cummings for their 
support; to Mr. Ausias Orti Moreno, who is here, my children's 
case manager from International Social Services; and to the 
National Center for Missing and Exploited Children who has been 
helping me from day one, especially to Rami Zahr, Sarah Baker, 
Team Hope Program Director Abby Potash, all present here. To 
all my friends, members of church, colleagues from work, from 
Hopkins, my lawyers. They have left their jobs today to be here 
with me.
    My very special thanks to you, Chairman Smith, and your 
counsel Allison Hollabaugh.
    I would like you to know that when I spoke to my children 
over the phone just shortly after the abduction, they naively 
asked me, ``Daddy, can you help us return home?'' My heart 
breaks every time I remember these words. I promised my 
children then that I was going to do whatever was only possible 
in the world to help them.
    During these past 7 years I have been working with lots of 
people, but one thing I can say about you, Chairman Smith, is 
that I can sense that you have sincere compassion for our 
children. You, indeed, care for the well-being of the children 
who are victims of all kinds of abuse committed by their own 
parents as a result of their blind selfishness. Abductors put 
themselves first, children are secondary, and often use this as 
an act of revenge against the spouse.
    But this is why the law exists. What would the world be 
today if there were no laws? So on behalf of my three boys, 
thank you, Mr. Smith, for creating the Goldman Act. Thank you 
for asking the Department of State to enforce the Goldman Act 
and request Slovakia and all the other countries who today are 
still attempting to bypass the law to go ahead and simply 
fulfill the law and return our American children.
    We did the same for them. When a child was kidnapped to the 
United States by a parent, our authorities made sure the child 
was safely returned to the left-behind parent in Slovakia. We 
did not create excuses. We acted fast, and we used all the 
possible resources and will do it again.
    I know that I have very short time, but just one paragraph 
to my children.
    To you, Ork'o, Amaru, and Raymi, this is the first time I 
have been given the opportunity to talk to you since our phone 
conversations were cut in 2010. I love you guys with all my 
heart. You are my life. I miss you.
    Every morning when I get up, I kneel and pray to God to 
help us to be together again, to protect you from any evil. I 
kiss your picture that I have placed on the door of the fridge. 
I keep your picture on my cell phone. I dream about you often, 
but I see you in my dreams as still little as you left our home 
almost 7 years ago. I bet you are bigger and stronger today.
    Hang in there, guys. Stay strong. Dad loves you more than 
anything in the world. I live only for you. Forgive me for not 
having been able to honor my promise to help you return home 
until today.
    And please now read my blog, read the court orders. I will 
put them all online. Read the news. Please give me the chance 
to tell you my part of the story, too. Every story has two 
sides. You have heard only one side. No matter what you have 
been told about me, please listen also to me.
    You guys also pray to God all the time and pray for your 
mother, too. God doesn't do anything wrong, but he only permits 
bad things to happen. I am waiting for you and will always be.
    Te amo Ork'o. Amaru te adoro. Raymi, I love you. Papa.
    [The prepared statement of Dr. Frisancho follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Frisancho, thank you very much for your 
testimony. It is very moving, and hopefully it will soon result 
in the return of your children, and we will do everything we 
can.
    Dr. Frisancho. Thank you very much.
    Mr. Smith. I would like to now ask to present his testimony 
Mr. Jagtiani.
    And thank you for being here.

 STATEMENT OF MR. VIKRAM JAGTIANI, CO-FOUNDER, BRING OUR KIDS 
            HOME (FATHER OF CHILD ABDUCTED TO INDIA)

    Mr. Jagtiani. Thank you, Honorable Chairman Smith, members 
of the subcommittee, and Congress. Thank you for giving me the 
opportunity to testify before this subcommittee today.
    I wish none of us had to testify on an issue like parental 
child abduction, but given the serious humanitarian crisis 
affecting thousands of children and families in America and 
around the world, I feel privileged to be able to speak about 
my daughter's abduction from her home in New York to Mumbai, 
India, and the challenges many other left-behind parents and 
myself have faced in securing her return home.
    Chairman Smith, with your permission, I would like to 
submit my full testimony for the record.
    Mr. Smith. Without objection.
    Mr. Jagtiani. Thank you.
    My testimony today centers around our children. They are a 
product of love, and during their development, it is critical 
for our children to receive the unconditional love of both 
parents. Even if the parents decide to part ways, it is wrong 
to rob a child the love of and access of the other parent. Any 
problems that occur between a mother and father as they part 
ways have to be worked out in an orderly fashion through a 
court in the home jurisdiction. Abducting the child and using 
them as a pawn for revenge or as leverage is incorrect and 
unacceptable.
    In my case, my daughter, Nikhita, was abducted to India, a 
nonconvention, nonbilateral country, in September 2013, when 
she was only 4 years old. Nikhita didn't know she was being 
abducted, nor could she have prevented her own abduction.
    This is the stark reality of International Parental Child 
Abduction (IPCA), which many governments around the world, 
including India, fail to acknowledge. Today, India has new 
leadership, and it is my hope that the new leadership will see 
this as an urgent problem and tackle it in the right way, so 
that these cases get resolved. Just as the U.S. had a civil 
rights leader in Dr. Martin Luther King, India had Mahatma 
Gandhi. Both these leaders had human rights and social justice 
at the forefront of their campaigns. If Gandhi were alive 
today, he would support India's accession to The Hague 
Convention on Civil Aspects of International Child Abduction.
    At the time of the abduction, my wife and I had been living 
separately, but we shared custody of Nikhita, who had just been 
enrolled at a new school on Manhattan's Upper East Side for the 
academic year 2013-2014. My daughter was abruptly removed from 
school by the mother, citing a family emergency. Nikhita's 
mother took a leave of absence from her job, terminated her 
lease, and traveled to Mumbai, India, on a one-way ticket, 
coincidentally on the very day my dear father passed on in 
India.
    I happened to be visiting my ailing father in Mumbai at the 
time, and after his final rites and mourning period, I returned 
to my home and my job in New York. My estranged wife, 
meanwhile, announced that she would not be returning, nor would 
she permit the child to travel back with me. She had 
unilaterally decided to relocate to Mumbai because, she 
claimed, her career prospects looked brighter there, and she 
alleged Mumbai was her birth and matrimonial home now.
    Nothing could be further from the truth. She is a U.S. 
citizen, who abducted a U.S.-born and raised child, both of 
whom--both of whose habitual residence was in New York. My 
estranged wife was attempting to move the playing field to a 
favorable forum, and using our child as a pawn to gain from her 
wrongful act. It was a sinister plan, and I avowed to fight for 
my child's rights.
    On returning to New York, I heard from her friends that she 
had been planning this abduction for months, so I immediately 
consulted a lawyer and initiated a wrongful removal and 
custodial interference complaint. Due to the challenges by the 
abducting parent, it took me 18 months to complete service in 
India, upon which she became party to the custody case in New 
York.
    The court conducted a detailed investigation. I was awarded 
temporary custody, and my estranged wife was directed to 
immediately return Nikhita to New York. Of course, she has not 
complied. As a result, Nikhita's mother has been charged with 
kidnapping by the Federal prosecutors in the Southern District 
of New York.
    A battle is won or lost by choosing the terrain on which it 
will be fought. While thwarting service of New York proceedings 
and orders, Nikhita's mother embarked on a series of malicious 
civil and criminal proceedings in India, not only against me, 
but against members of my extended family. With an array of 
favorable laws and an extensive support base in India, 
Nikhita's mother has relentlessly pursued a slandering campaign 
in multiple courts and multiple jurisdictions.
    Jurisdictional arbitrage is the practice of taking 
advantage of discrepancies between competing legal 
jurisdictions using whatever tactics and loopholes imaginable.
    For those on the receiving end, India can feel like the 
wild, wild west, and abducting parents in India play a 
nefarious game by filing false, unsubstantiated criminal 
charges in India, while in my case, using the local police to 
harass my extended family.
    Interestingly, India is a signatory to The Hague Convention 
on Service of Process of Judicial Documents, a founding member 
of The Hague Conference, but is not a signatory to The Hague 
Convention on Civil Aspects of International Parental Child 
Abduction. This has resulted in unnecessary hardships, wrongful 
separations of children from their loving parents, legal 
delays, and prohibitive costs.
    Challenges in India: Based on recent press reports, more 
than 27 million cases are pending in India's district courts, 6 
million of which have lasted longer than 5 years, while another 
4\1/2\ million are waiting to be heard in the high courts. The 
former esteemed Supreme Court Justice of India, B.N. Agrawal, 
stated, ``Delay and disposal of cases not only creates 
disillusionment among the litigants, but also undermines the 
capability of the system to impart justice in an efficient and 
effective manner.''
    Abducting parents and their aiders use India's systemic 
delays in the judiciary as a tool to benefit from their 
wrongdoing, seeking to delay or deny the return of abducted 
children to the countries of their habitual residence.
    Left-behind parents face other major hurdles. India's 
institutional bias against recognizing parental child abduction 
as a violation of human rights and law, and gender stereotypes, 
which manifest itself in various forms. Indian judiciary and 
policymakers view international parental child abduction not as 
a child's rights issue and legal violation, but rather, as 
routine child custody issues. When a mother perpetrates child 
abductions, they often treat these cases as women's rights 
issues, the result being Indian courts routinely relitigate the 
divorce and child custody cases decided by competent courts in 
other nations where children habitually resided, thus creating 
a complex legal web.
    When mothers of Indian origin, regardless of their 
nationality, abduct children to India, they are often viewed as 
helpless women, or Abla Naaris, who cannot legally defend 
themselves in a foreign country and, hence, need protection in 
mother India.
    When a father abducts children to India, left-behind 
mothers often face other forms of gender bias. Left-behind 
mothers are asked by Indian courts to return to India to 
fulfill their duty to their children and spouses.
    Often, Indian courts usurp jurisdiction and issue arbitrary 
orders without framing of issues or examining evidence that 
then become cumbersome to remove. Ex parte interim orders are 
often issued without due process, lingering for years, 
compounding the pain for the seeking parent and the child.
    When a mother abducts children and flees to India, there 
are a whole cocktail of legal procedures to avail of, and 
numerous nefarious operators to advise them. Two of the most 
commonly misused and Draconian laws are related to the 
Protection of Women Violence Act 2005, and Section 298 of the 
Indian Penal Code. While the intent of many of these laws may 
be good, quite often during implementation, the spirit is lost, 
when lines get blurred between allegation, fact, imagination, 
and reality. It is no wonder that parents, regardless of 
gender, who abduct their children to India, find safe haven 
under Indian laws. In all cases, children are the innocent 
victims of a crime that India refuses to recognize.
    My family and I are victims not only of IPCA, but of 
India's legal system, which is failing to deliver justice. My 
daughter is an innocent voiceless victim of a crime committed 
by her mother, aided and abetted by India's refusal to 
recognize IPCA's child abuse, a human rights violation, and a 
crime. I am left with no choice but to litigate in a broken 
legal system and a cross-border legal vacuum, trying to reunite 
with my only child, my daughter, Nikhita.
    For the last 3 years, since the passage of the Goldman Act, 
we at Bring Our Kids Home have been tirelessly advocating for 
the Indian and U.S. Governments to work together to address the 
pain and suffering caused by the lack of legal framework that 
deals with the serious and growing issue.
    For our part, the many left-behind parents have 
successfully obtained U.S. court orders establishing our 
children with habitual residence of the United States and were 
wrongfully removed from the United States, or retained in 
India. Starting in December 2012, the Department of State has 
sent formal written requests to India's Ministry of External 
Affairs, and our Government has engaged with the powers in 
India to provide a commonsense solution to have our children 
returned. However, the State Department, the Department of 
Justice, and others, have failed to convince our strategic 
partner, India, to cooperate with us in the return of American 
children. The institutional and systematic complacency in 
India, and the lack of urgency by both our Governments to 
decisively address this serious and growing issue, only hurts 
our children and our national interests.
    We are a rule-of-law-based society, but when it comes to 
international parental child abduction to India, there is no 
rule of law. During Prime Minister Modi's visit to the U.S. in 
June 2016, we were pleased to note that the issue of 
international parental child abduction was raised in the 
strategic dialogue and was part of the bilateral statement.

        Recognizing its mutual goal of strengthening greater 
        people-to-people ties, the leaders' intent to renew 
        efforts to intensify dialogue, to address issues 
        affecting the citizens of both countries that arise due 
        to differences in the approaches of legal systems, 
        including issues relating to cross-country marriage, 
        divorce, and child custody.

    Shortly after, we saw reports that the Ministry of Women 
and Child Development, MWCD, posted a draft bill for India's 
accession to The Hague Convention on Child Abduction on their 
Web site and we were hopeful and excited to witness progress. 
Bring Our Kids Home provided feedback and comments to help 
guide a fair and commonsense solution for our kids.
    Early in the fall of 2016, we heard sound bites that the 
vested interests in India, including the National Commission 
for Women, prominent women's rights attorneys, and abducting 
parents were lobbying to maintain the status quo and convince 
the Ministry of Women and Child Development to oppose its own 
draft IPCA bill. Sure enough, by Thanksgiving, we received news 
reports that they had junked their draft IPCA bill and would 
not sign The Hague Convention, the reason stated being, we 
found that there are more cases of Indian women who returned to 
the safety of their homes in India after escaping a bad 
marriage. Cases of women who are foreign citizens married to 
Indian men going away with their children are far fewer. Hence, 
signing The Hague Convention would be a disadvantage to Indian 
women. Also, a majority of such cases pertain to women instead 
of men running away, said a Women and Child Development 
official.
    As you can imagine, we had a pretty dismal holiday season 
without our children and being robbed of our hope of any 
solution at all.
    Five weeks later, on January 3, 2017, we saw a report that 
India will reconsider the hasty decision and invite all 
stakeholders to a meeting on February 3, 2017. As important 
stakeholders, we reached out to the Ministry of Women and Child 
Development through multiple channels, only to be informed that 
this would be a closed inter-ministerial rule meeting, and the 
MWCD suggested we participate via Twitter. After pushback from 
several left-behind parents on Twitter, the ministry tweeted an 
email address in a couple of days before the start of the 
consultation, but would not disclose the precise time and venue 
of the consultation, which would be a significant impact to the 
lives of our children and families.
    Bring Our Kids Home and several left-behind parents emailed 
our concerns and suggestions to the Ministry to consider during 
the IPCA Hague consultation held on February 3, 2017. Based 
upon independent sources who attended the consultation in New 
Delhi, we were informed that mothers who had abducted American 
children to India were at the consultation, and even presented 
at the event. However, no representation from left-behind 
parents was invited. I was aghast to find out that amongst 
those who presented at the Ministry of Women and Child 
Development consultation was my estranged wife, who made a 
detailed presentation on why India must not accede to The Hague 
Convention on Child Abduction, and presented a perverse 
narrative on IPCA.
    Thus, over the past several months, left-behind parents 
have been on an emotional and psychological roller coaster, 
while the Government of India gives mixed signals at best and 
the U.S. Government offers no substantive relief. Left-behind 
parents across the spectrum feel like we are fighting a David-
versus-Goliath battle, and our administration isn't pulling its 
weight in this fight.
    Before I conclude my testimony, I would like to make a 
direct appeal to Prime Minister Modi, to Foreign Minister 
Swarage, to Minister Menaka Gandhi, and to policymakers and 
judges in India. Instead of dehumanizing us left-behind 
parents, who have had our children taken away from us, been 
robbed of the love and affection of our children in the best 
years of their lives, most often being denied any access, and, 
in my case, the abducting parent will not even disclose the 
physical location of my child in Mumbai, it is heartbreaking 
when I receive a message from my Indian attorney the morning of 
a scheduled Skype call with my daughter that she is too busy 
with her friends or her activities to come to the phone or the 
computer to say hello.
    This could happen to anyone. Imagine it was your child. 
Please engage with us, not symbolically, but as important 
stakeholders, and allow us to participate in creating a fair 
and just policy so that no parent or child has to go through 
this trauma we have endured.
    In conclusion, I respectfully ask you, Chairman Smith and 
Members of Congress, is enforcement of the U.S. law optional? 
How long should we, parents of America's stolen children, wait 
for our Government to enforce our laws and hold perpetrators 
accountable? How many more hearings do we need before countries 
like India, Japan, and Brazil be held accountable for their 
lack of cooperation in returning American children?
    We have a new President who puts America first. I urge 
President Trump and our Federal agencies to enforce the Goldman 
Act and put America's children first above other bilateral 
priorities. With Prime Minister Modi's possible trip to the 
U.S. in May of this year, I respectfully urge President Trump 
to use this opportunity with Prime Minister Modi to resolve 
this issue as a bilateral priority and usher a new era of 
bilateral friendship between our two countries.
    Please help bring my Nikhita back. Please help bring all 
our children home. Thank you.
    [The prepared statement of Mr. Jagtiani follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Jagtiani, thank you very much for your 
testimony and for your appeal to Prime Minister Modi. When he 
was here last year, I actually introduced him to one left-
behind parent, a young woman whose two children, two sons were 
abducted, and asked him personally to intervene. I have met 
with the Ambassador. There has been a pushback on all of these 
cases, which is deeply troubling.
    And my first question is that the Goldman Act provided a 
very, I believe, effective framework, but it requires faithful 
implementation. We got less than adequate implementation under 
the Obama administration. It is unclear whether or not 
President Trump will faithfully implement it. I hope and pray 
that he does. When he met with Prime Minister Abe, we sent a 
detailed letter to him before that meeting regarding the left-
behind parents, the older cases, as well as the new Hague 
cases, both of which are being inadequately cared for by the 
Japanese Government. And I would just point out that in 2011, 
when I went to Japan with Nancy and Miguel Elias on behalf of 
their grandchildren, Jane and Michael, we met with the Minister 
of Foreign Affairs, he was then the Vice Minister, Matsumoto, 
and he was very empathetic. We found empathetic ears, but not 
empathetic actions on the part of individuals. The Eliases now 
are still waiting many years later, the abduction was right 
before Christmas 2008. And so many other of the longer cases 
have been agonizing beyond words.
    Then last year, a couple years ago, at the first oversight 
hearing of what OCI was doing in terms of its report, it was an 
embarrassment, how poorly crafted the report was, how it left 
out critical details and information, so bad that they went 
back and said they would redo it, and it came back better, but 
certainly not covering the fullness that we had hoped that they 
would.
    In 2016, for example, Japan was not listed as a country 
demonstrating a pattern of noncompliance, despite the fact that 
it hit all of the criteria that should have put them on that 
list, which would have then led to the hoped-for sanctions to 
sharpen the minds of our friends in Japan; and they noted that 
there was a problem with enforcement of return orders, exactly 
what Mr. Cook has raised to us today.
    Enforcement of Goldman is first. That, we can do. And 
Goldman was not enforced by the Obama administration, and I 
find that to be a missed opportunity. And for all of you, it 
must be agony beyond words, because there were tools that were 
unutilized and remained in the toolbox.
    Dr. Hunter, you had a successful case, thank God, and we 
have three individuals whose cases remain unresolved. I would 
ask all of you, first the report has to be done right. The 
April 30 deadline has been missed before. Last year, it was 72 
days late. And, frankly, I would rather have lateness and 
tardiness than an inadequate report. So my hope is that they 
will get it right this year. And Japan certainly jumps off the 
page. India needs, I think, a much more robust response once it 
is so designated as a noncompliant country. So getting it right 
on the report, and, Dr. Hunter, you might want to lead off on 
that.
    One of the things that I found appalling was a pattern with 
the last administration in not speaking truth to power.
    I also authored, besides the Goldman Act, the Trafficking 
Victims Protection Act, and that requires a report every year 
that lays out countries along a tiered system, Tier 3 being 
egregious violators. Well, 16 countries were improperly given a 
passing grade by the Obama administration. And I am not saying 
here what I didn't say then. I had a series of hearings at 
which we said, how could you falsify the report on sex and 
labor trafficking to give Malaysia, Oman, China, and other 
countries, Cuba, a passing grade because of other political 
considerations? The report has to get it right and state 
clearly and without any ambiguity where the country stands, 
list the cases honestly. And I can tell you if the report comes 
out inadequate again, no matter what comes out in the report, 
we will have a hearing on that to hold whoever the new person 
is to account and to encourage that at least get the report 
right done first, and then the sanctions regime and enforcement 
and the imposition of penalties will be part two, which is the 
way the law designed it.
    I am very concerned as well that there were no MOUs. When I 
was in Japan with the Eliases, we raised with our delegation 
there, the Ambassador was out of the area then, but we raised 
it repeatedly since, and with every other country where there 
are individual left-behind parents who, when a Hague, for 
example, was entered into, are left behind a second time, 
because obviously Hague is from the date of ascension, and 
anyone before that is not covered by Hague.
    So we have pleaded with the Obama administration to enter 
into MOUs with countries to figure out a mechanism to get those 
children back home to their left-behind parents. Not a one. Not 
a one. We also wanted that for countries that are not part of 
the Hague Convention, because obviously, there needs to be a 
durable mechanism for effectuating the return of those 
children, and you need a system; the bottom line is to make 
that happen. And, so, I am very, very concerned about that. But 
I have brought it up and when Prime Minister Modi, if he does 
come again, that is something we will appeal to the 
administration to raise.
    So the idea of the report, MOUs, and this issue--and, 
again, Mr. Cook, your idea of the G7 is a fantastic one. We 
will circulate letters. I know that Allison brought that up 
earlier today at the meeting at the White House. I do hope that 
the White House--you know, of all things, when the theme that 
the Italians have put for this, citizen safety, well, how about 
the safety of abducted children? That should jump off the page. 
Your thought of a G6, that was an interesting and very novel 
idea as well.
    So speak to the reports, getting them right. Again, I would 
rather miss the deadline and get it right. They are 72 days 
late last year and didn't get it right on a number of 
countries, like Japan. Then I will yield to my friend and 
colleague, and we will have some additional questions after 
that.
    Dr. Hunter.
    Ms. Hunter. Thank you, Mr. Chairman. And the reporting is 
essential for a few reasons. One, transparency is important for 
us as parents, who have been advocating for this.
    So in my professional capacity, data drives our decisions. 
I work for the Kentucky Office of Highway Safety. We use data 
about driver behavior, vehicle miles traveled, fatalities, 
serious injuries. We rely on data to address the solutions and 
to drive our solutions. And so, it is very, very important that 
we aren't, in my professional capacity, doing what we think 
needs to be done; we are relying on good, quality information. 
And that is something that we have been, for some time, asking 
the State Department and the Office of Children's Issues for.
    Part of that, we have begun to take it into our own hands, 
and we are trying to collect data from parents to help us to 
fully identify the scale and scope of this problem. We were 
very pleased at the White House meeting to learn this morning 
that there are indeed mechanisms and analytical tools that are 
available. So we are hopeful.
    And from iStand's position, there is not much that can be 
done about what has happened. What we can do is look at a way 
forward. And for us, the ability for the State Department to 
clearly, accurately, honestly, and with integrity, report on 
the full scope and scale of the problem is essential. And I 
would venture to say that once there are true numbers out, that 
will mean great things for Congress, and your ability to 
effectively advocate for your constituents as a casework 
function, but then also, to effectively engage with nations, 
but we can't know any of that until there is proper reporting. 
And so we do call upon the State Department as they issue the 
next report to make sure that the information is reliable and 
it is consistent, and if it is reliable and consistent, these 
worst-offending countries are going to rise straight to the 
top. We are going to see Japan as noncompliant, we are going to 
see Brazil as noncompliant, we are going to see India as 
noncompliant. Even the countries that aren't signatories, if 
the information is reported accurately, the United States will 
be in a position of strength, the President will be in a 
position of strength when he engages with these nations to 
effectively advocate for American children.
    And if I might just very briefly say on MOUs (Memoranda of 
Understanding) or other types of agreements, these are 
essential. It is our understanding that this administration 
has, for all intents and purposes, thrown out the playbook 
about how it has been done and multilateral agreements and 
multilateral treaties. We are in favor of that. We are in favor 
of the United States negotiating directly with every single 
nation individually and from a position of strength. We have 
many, many tools in our arsenal in the Goldman Act to require 
countries to return our children, and I think that there ought 
to be both that dialogue, and that has its place, but, yes, 
strongly worded memoranda that make it uncomfortable for 
countries.
    Mr. Cook. One of the ideas I have scribbled down here and I 
left it out of my testimony, but it would be wise and would 
make a statement if the State Department were to come out and 
issue a travel warning, specifically for the country of Japan, 
and as the United States, indicating that we do not recommend 
anybody, any children of half Japanese descent, or anybody that 
has a child of that to travel out of the United States at any 
point, because to circumvent The Hague, the latest gimmick, if 
you will, is--what is happening is that, let's say a Japanese 
spouse will play all nice and say, can we just go visit my 
family in Japan? Okay. Let's just take a vacation, which to a 
compassionate and understanding U.S. citizen might say, sure, 
let's go visit the family.
    Once you are in Japan, it is done. She can have you 
arrested, or he, excuse me, but it is mostly women, so put it 
that way. She can have you arrested. And as we know, too many 
cases of people that get held for 23 days in the Tokyo hotel, 
and other things like that. And so that, one, sends a 
statement, symbolic; two, it is very practical sense, because 
good-hearted, compassionate people are being hoodwinked into 
returning with their children to Japan, and at that point, they 
are just like this individual from Italy, he went back and 
everything turned suddenly. And there is nothing that can be 
done at that point, because we all know The Hague is 
ineffective once you are in Japan.
    Mr. Jagtiani. Yes, Chairman Smith. We thank you so much for 
your efforts, you know, in engaging with India's leaders on 
behalf of Bindu Philips and with Prime Minister Modi and the 
Indian Ambassador. We heard you used to get him in the halls at 
Rayburn, and we thank you so much for that. And actually, Bindu 
is in India right now, I think visiting her kids, after 8 
years, she had an order from the Supreme Court of India to be 
able to see them. And they have now actually aged out of the 
system, which is really pretty tragic.
    As I was actually talking to Dr. Hunter off the record, one 
of the issues with India is we effectively are dealing with 
cultural biases, and we have to change the thinking before we 
can solve the problem. And it is a long haul, but I think with 
the tools within the Goldman Act now, soft diplomacy might not 
work as well. So we need to do something to really get them to 
take some action on our orders here. And it is my hope that 
President Trump, who is a family man, will take cognizance of 
this issue in the upcoming visit, and we will see some 
resolutions. Thank you, sir.
    Mr. Smith. Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    It strikes me--and I will tell you by way of background, 
that I spent about 10 years as a criminal prosecutor, and when 
I finished law school, I swore never to do domestic law. I 
would rather try a murder case. And I mean that, and I don't 
mean it to be funny.
    A couple of times during the testimony today, Mr. Chair, I 
had very itchy eyes that needed wiping. The circumstances are 
just heartbreaking. I want to commend the folks who came, I 
believe probably with Dr. Frisancho. You obviously have a good 
strong support network, a lot of people here on your behalf.
    It strikes me that perhaps wording, as it relates to the 
status of your respective children, might get in the way of 
messaging. And what is beyond my ability as a father and a 
divorcee of two children to wrap my brain around, is not that 
you don't have custody of your children--and I am going to tell 
you how I feel, not perhaps what you want to hear--it is that 
you are not able to see your children.
    And as I think through this process in my limited tenure 
here, Mr. Chairman, and members of the panel, I try to think 
about what outcomes are possible, what can we get to. And so 
what I will promise you that our office will do is reach out, 
specifically starting with Japan, to the Ambassadors and 
Embassies and start to ask questions. And I say starting with 
Japan, because obviously Slovakia and Brazil and India are 
other nations of note, but my questions won't be driven toward 
gaining custody of your children, it will be driven toward 
gaining the right of you to see your children, right? Because 
there are two sides to every case, the court can come to 
whatever conclusion it wants, but to deny you the right to even 
see your children is beyond my ability to wrap my brain around. 
It is a grave injustice not only to yourselves, but to your 
children.
    Dr. Hunter, you talked about the scope of the problem. And 
there is a handout up here that we haven't received, I am going 
to ask if our office can be made privy to, but I want to wrap 
my brain around that, if you all have amalgamated data on what 
countries have how many U.S. dual-citizen children residing. 
What is the scope of the problem? And I don't know if there is 
an answer to that except for I am asking for your data so that 
we can wrap our brains around it. Do you know a number off the 
top of your head?
    Ms. Hunter. We know numbers, but we are concerned about the 
accuracy of those numbers. And we truly believe that they have 
been low-balled, so to speak.
    The State Department reports that every year, about 1,000 
American children are abducted, and taken to a foreign nation, 
where it is a fight to bring them home. However, we suspect 
those numbers are much higher, for a few reasons. One, many, 
parents don't know that they need to report. They feel when 
their child has been abducted, that either if they can't solve 
it themselves, there is no hope. And so we know that there are 
probably cases in which children don't report.
    We have been able to quantify the numbers. And we like to 
look at this from a whole-number perspective. So over the last 
5 years or so, we can imagine that over 5,000 children have 
been taken. My colleague, Jeffery Morehouse, from Bring 
Abducted Children Home, they often indicate that over the span 
of the time that the Office of Children's Issues was 
established, 29,000 children have been abducted, and a fraction 
of those have come home.
    But to your answer, Mr. Garrett, we don't know, which is 
why I am actually optimistic that now that--that we know that 
the State Department has this reporting ability, perhaps we can 
get more accurate numbers, and there are many data points that 
we could parse out of that.
    Mr. Garrett. Well, a number obviously is a number, but a 
name and a face are compelling, and so I would encourage you, 
and I will work with the chairman to try to--and obviously 
there are privacy concerns, we are dealing with minors, but at 
least as it relates to the specific Members of Congress, 
compile a list. I would love to know the names, dates of birth, 
and dual nationality status of the young people from my 
congressional district. I encourage you to send to each Senator 
and Congressperson the list, because names and faces make 
people move. Numbers are scary. But I am asking if you guys can 
do that, starting with us, and that will help us have a 
jumping-off point; not that someone by virtue of living in my 
district is any more important than any of you, but we have a 
limited amount of bandwidth.
    Mr. Cook, you talked about the legal process in Japan. I am 
vaguely familiar with the barriers to entry to the legal 
profession in Japan. And suffice it to say, we have an awful 
lot of lawyers in this country who might not be practicing law 
if they were subject to the requirements of the Japanese bar. 
It can't be cheap. Do you have a dollar figure? I heard $96,000 
at some point.
    Mr. Cook. Well, with respect to the situation going on in 
Japan legally and culturally, there are several things that I 
can't disclose or say.
    Mr. Garrett. But how much have you spent? And if you can't 
disclose that, that is fine.
    Mr. Cook. It is a lot.
    Mr. Garrett. So what I am driving at here is----
    Mr. Cook. I quoted a $95,000 figure. That is some time in 
history. That is not a current.
    Mr. Garrett. Right. So what I am driving at here--and this 
is bound to be a cottage industry in the legal profession in 
Japan of people who represent foreigners who have children in 
Japan.
    Mr. Cook. Yes.
    Mr. Garrett. And I don't begrudge them, although I think 
they owe you a duty of forthrightness on the front end, that it 
is a tough system and that the results aren't guaranteed. What 
I am driving at here, though, is that if you are not able to 
earn the amount of money required to fight the fight that you 
are fighting, you have got nothing, right? I mean, and that----
    Mr. Cook. Well, Mr. Garrett, here is a case in point: I am 
virtually without financial means anymore. And after a year of 
trying to enforce the return order of the Osaka High Court of 
over a year ago, that drained significant assets that I had. In 
fact, lost our house in the process. Okay?
    Well, the loss of the house and my drained financial 
resources was used as the primary rationale for the Osaka High 
Court to revoke their order of return, because, ``He has no 
money, why would you send him back to America?'' And that 
fundamental, and so, in essence, they just wait you out. They 
want you to quit legally, financially, emotionally, 
spiritually. And that has been allowed to occur, primarily 
because we have had a Department of State unwilling to use the 
Goldman Act tools that it has had.
    A view, since you come from the legal background, a view to 
the enforcement in Japan, and I use the term ``enforcement'' 
loosely, every step of the way for me to have--first of all, to 
have access to my children, I require the abductor, my wife's, 
permission. In order to do the direct enforcement or do the 
ambush, we needed her permission to do it that day.
    So I ask you, what do you think the likelihood is I am 
going to have access to my children if the legal foundation in 
Japan requires the permission of the abductor to allow me to do 
it? And there is nobody to enforce that, and so Japan will be 
in indefinite noncompliance with The Hague.
    Mr. Garrett. Have any of you on the panel had any contact, 
even via telephone or mail or email, with your children, or is 
it just radio silence, to use a military sort of cliche?
    Mr. Jagtiani. Yes, I have, actually. There was a court 
order for me to get Skype access. Initially it was phone, and 
then they escalated it to Skype, which I got, but that has been 
discontinued now over the last couple months.
    Mr. Garrett. Well, again, I pride myself on not telling 
people what I think they want to hear, but the truth, and I 
will tell you that you have enlisted a warrior for your cause 
today in the form of myself and our office, but my goal is not 
to fight for you to receive sole custody, my goal is to fight 
for you to receive access, because the courts will arbitrate 
who the custodial parent is, what have you, but I can't fathom 
that you have no access.
    Mr. Jagtiani. Yep.
    Mr. Garrett. And I think that requires the light of day be 
shown on these circumstances, and that the fourth estate be 
enlisted, and that we shame them, if you will, into simply 
allowing you access.
    Mr. Cook. Currently in Japan, there is an evolving, I will 
call it a scandal, I am going to the heading called Shelter 
Net, but I can't get into the details too much, because it is 
not my country, but it is being slowly handled. And I alluded 
to it in my testimony about there are forces within Japan that 
are doing their level best to make sure Japan does not change 
one iota from the sole custody zero sum game, and also to make 
sure that they will not comply with anything in The Hague. And 
those people, those individuals, are peppered all throughout 
the judiciary and the legal system, and so, to shine the light 
on them is not going to do much, and I am being maybe imprudent 
by talking about it now. I would like to have said a lot more 
in my letter to my children, but I have been advised that I 
have a very, very narrow scope of what I can say, because when 
it does get over to Japan, it will be spun in such an egregious 
manner, that even my testimony here today will be cast as some 
out of control, violent, rageful individual.
    Mr. Garrett. Well, that is not what I have seen.
    Mr. Chairman, I thank you for your latitude as it relates 
to my questioning. And I sincerely ask each of you to reach out 
to our office with your specifics. And James Van Den Berg is 
here with me today, and will be working on this subject matter. 
And, again, I think a realistic goal is that you should receive 
access to your children. It might even be that you have to 
travel to them, but, by gosh, that is not a big ask, it is not 
a big ask. And as a father, again, I can't wrap my brain around 
what you all have gone through. So----
    Ms. Hunter. Mr. Garrett, may I offer one other piece of 
information. The Goldman Act certainly does require the State 
Department to report to you and every Member of Congress, the 
children who have been abducted and wrongfully retained in 
another nation. We will certainly get with your office and 
James to help you identify cases, but you should be receiving 
this information also from the State Department.
    Mr. Garrett. At the risk of angering the State Department, 
I find that I receive more forthcoming, good information from 
private citizens than from the State Department.
    Ms. Hunter. Yes, sir. I agree.
    Mr. Garrett. If anybody from State is here, I apologize.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Garrett.
    Let me just conclude with a few final comments. First of 
all, I want to welcome back Ravi Parmar, who is from my 
district. He is from Manalapan. His son was abducted to India 4 
years ago. He has previously testified, and gave very, very 
insightful testimony. And, again, like so many others from 
India, his case remains totally unresolved, and so it is not 
just disturbing, it needs to be changed, and certainly our 
hopes are rising that this new administration will do it. The 
tools are there.
    I will give you an example, Dr. Frisancho, your case, 
Slovakia is trying to, as you know better than anyone else, 
make you begin your case anew in Hungary because of the 
proximity of where the children are right next to Slovakia, and 
yet, the State Department, in the 2016 Goldman report by the 
State Department, suggested that Slovakia is proof that 
diplomacy works, and notes in 2015, and I quote,

        U.S. Ambassador to Slovakia joined the chiefs of 
        mission from the French, Irish, Italian, Spanish, and 
        Norwegian Embassies to address problems that parents 
        experienced with the legal system in Slovakia, 
        including a lengthy appeals process and difficulty 
        enforcing Hague Abduction Convention return orders. The 
        Slovak Ministry of Justice introduced new legislation 
        that entered into force on January 1, 2016. The 
        legislation set a twelve-week time limit for the 
        resolution of Convention cases, limits the number of 
        appeals, and provides for expeditious enforcement of 
        Convention orders.

    Didn't apply to you. You found no remedy in that. As a 
matter of fact, ironically, the new limit on appeals is 
actually preventing you from appealing Slovakia's decision to 
close your case and to move it to Hungary.
    For its part, the U.S. Government is refusing to get 
involved in ``legal matters.'' That is an abandonment of you, 
frankly, and I apologize for the State Department for doing 
that. Yes, there are some very good Foreign Service Officers 
that take these cases seriously, work hard on them, and I 
applaud them and have singled them out over and over again. But 
time and time again, without an MOU, without vigorous 
enforcement of Hague where Hague is in force, and without the 
penalty phase prescribed in the Goldman Act, these countries 
like we saw with the Foreign Minister of Japan, they go to 
their Parliament and say, the Americans don't enforce their own 
law. There have been no sanctions meted out to any nation under 
the Obama administration, and that has got to change with this 
administration. Doctor, you might want to speak to that, if you 
would like, but it seems a twisted way of applauding a country, 
and yet, you have been so further penalized by even a law that 
we lift up as being a good one.
    Dr. Frisancho. Yes, Chairman Smith. The truth is that my 
wife and her parents, they live on the border between Slovakia 
and Hungary.
    Mr. Smith. Right.
    Dr. Frisancho. It is only 14 miles distance from the house 
in Slovakia to the school that the children attend in Hungary. 
She holds two jobs. She works in Slovakia and in Hungary. It is 
like keeping one foot in each country. I think she is hoping 
that we are going to transfer the whole litigation to Hungary, 
and once Hungarian judges decide that this is wrong again and 
the children have to return back to the United States, I think 
she believes she can go again to Slovakia. And it is just this 
game, like ping-pong.
    I have explained all this to the State Department years 
ago, and I have met with a couple of officials from there, and 
they have told me, they have advised me that it would be good 
to start a new case in Hungary. And I have repeatedly said that 
I don't think this is the best idea, because how can we start a 
new litigation in Hungary when Slovakia has accumulated 
evidence for 6 years. That just doesn't make sense.
    I also would like to note that one of my Slovakian lawyers 
advised me and said, Dr. Frisancho, I am a Slovakian citizen 
and I know how our people think. If Slovakian authorities are 
getting these demarches, diplomatic notes, and whatever from 
the U.S. Embassy, that is not going to work. You have to ask 
the State Department to directly contact the Minister of 
Justice or someone in Slovakia at the highest level.
    I have repeatedly said that to the State Department for 
years, and my case managers have always answered, we have to 
escalate, but we are escalating for years, and we never got to 
the top. As I said before, I am very grateful for what they 
have done for me and for my children, but we all can see that 
nothing of this works.
    So if I could ask one more thing from the State Department, 
it would be to follow the instructions of a Slovakian lawyer 
that is a Slovakian citizen. He knows what he is saying. He 
understands the Slovakian mentality. They are not going to 
listen to these diplomatic notes, personal meetings, demarches. 
They are upset, of course, that Slovakia has appeared on the 
report of noncompliance. They are upset, I am sure, that they 
lost a case under the European Court of Human Rights. They had 
to pay me damages, with that they had to acknowledge that they 
did wrong, they violated my human rights, but the cases are 
still pending, and it is because we need more pressure from the 
top.
    Mr. Smith. I think that point is well spoken, and I thank 
you for it.
    You know, there are others in the audience, Jeffery 
Morehouse was mentioned; Edeanna Barbirou, who testified some 
years ago; last year, I believe it was. She has an unenforced 
order, like so many others. And if there ever was an Achilles 
heel, there are lots of them, it is the unenforced order. You 
get the piece of paper, you think, I got it, and then it is not 
enforced. This is the first hearing this year on child 
abduction. It will be followed by several others, including 
inviting the Trump administration to send its top 
representatives here, and I hope the same thing happens on the 
Senate side, to begin an all-out effort to enforce the law, the 
U.S. law, and find if there needs to be any additions to it, 
but above all, enforce what we have got. It was painstakingly 
arrived at. I introduced it 5 years before it was actually 
enacted and went over it multiple times, always looking to 
finely tune it. The Senate wouldn't take it up, and then they 
finally did, thank God, and we were able to get it down to the 
President for signature. A law that is unenforced is just 
sitting on the table. We need enforcement, and that is going to 
be my mantra going forward, I can assure you.
    Anything you would like to add before we conclude? And I 
thank you again for coming forward. And I certainly, as a 
father myself, so deeply respect your love for your children, 
and all of us feel that way on my staff, that we are just in 
awe of your tenacity, of your love. And so if there is anything 
you would like to say, or we will just conclude.
    Yes, Doctor.
    Dr. Frisancho. I would like just to send a short message to 
all the fathers and mothers who are dealing with similar cases.
    What the abductor wants, and sometimes the courts in their 
countries, and all the authorities in their countries who are 
supporting the abductors, what they want is to wear you out. 
Please stay strong. Find any kind of support in your church, 
your friends. You see how many people I got here today. You 
have to fight for your children. And use us as an example. Look 
at Noelle, James, everybody here, Edeanna, Randy, and so many 
people.
    We struggle. We cannot sleep. We think of our children all 
the time. And we know what this means for you, so please, you 
have to keep going, stay strong and fight. Your children will 
appreciate it one day. And you have to make sure that they 
know. Like my kids, I don't think they know. The National 
Center for Missing and Exploited Children just helped me to 
publish my blog in December 2010.
    For the first time, my kids have the opportunity to see 
something about me. When I went to courts, I almost never spoke 
anything wrong about my wife. The court proceedings took place 
mainly about her accusing me of everything possible, and me and 
my lawyers defending. But I changed my mind, and so from this 
year, I am going to start making all the real information 
public so that my children can see that. And I cannot just live 
without continuing trying to help my children. It is nothing 
against the mother. I believe that there is a law, and we have 
to fight to make sure that those who are responsible have to 
fulfill the law. So parents, please, stay strong and keep 
fighting for your children.
    That is all what I wanted to say. Thank you.
    Mr. Smith. Thank you.
    Ms. Hunter. Mr. Chairman, thank you. Just in closing, a few 
words from us.
    We truly do believe, again, that this is the time to put 
America first for America's stolen children. We expect this 
administration to hold true to that as it relates to this 
vulnerable population.
    Transparency is very, very important. Good data from the 
State Department reported to Congress, you can use, and we as 
an organizing and growing parent community can use. We are not 
going away. More parents are coming along every day that 
believe that there is a solution and the only solution is 
children returning home. And then we call for strong leadership 
in the Office of Children's Issues that would make this a 
transformative process. Thank you.
    Mr. Smith. Thank you so very much.
    [Whereupon, at 1:54 p.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
